AAAAAAAAAAAAAAA




             U.S. Department of Energy
             Office of Inspector General
             Office of Audit Services




  Audit Report
 Nanoscale Materials Safety at the
 Department's Laboratories




 DOE/IG-0788                               February 2008
                            Department of Energy
                                 Washington, DC 2 0 5 8 5
                                February 28, 2008


MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 IhTFORMATION: Audit Report on "Nanoscale Materials
                         Safety at the Department's Laboratories"

BACKGROUND

The National Nanotechnology Initiative was established as a multi-agency research and
development program in 200 1. As a part of the Initiative, the Department of Energy
(Energy) is in the process of constructing Nanoscale Science Research Centers at six
national laboratories. In addition to funding the construction and operation of these
facilities, the Department funds nanotechnology projects at six other national
laboratories.

Since the field of nanoscale materials research is relatively new, the health and safety
risks associated with these materials are still emerging. Health and safety risks include
possible pulmonary inflammation and lung tumors resulting from the inhalation of
nanoscale materials as well as an increased potential for explosion and fire due to
nanoscale attributes that are not present in the same materials at larger sizes.

The Department established DOE P 456.1, Secretarial Policy Statement on Nanoscale
Safety in September 2005. This policy stipulates that the Department and its contractors
should use best practices and national consensus standards when establishing safety
policies to protect workers. IUational consensus standards have not yet been established
as the scientific community studies safety and health risks posed by nanoscale materials.
The Centers for Disease Control and the National Institute of Occupational Safety and
Health (CDC/NIOSH) have taken a leading role among Federal agencies conducting
research on the safe handling of nanoscale materials. In October 2005, CDC/NIOSH
distributed, for peer review, information regarding precautionary measures for the safe
conduct of nanoscale work, including medical surveillance, workplace monitoring,
training, and engineering controls. Given the absence of consensus standards, we used
the CDCAVIOSH information to determine whether the Department's laboratories were
employing appropriate safety measures specifically tailored for working with nanoscale
materials.

RESULTS OF AUDIT

We found that the Department and its laboratory contractors had not always employed
precautionary measures as outlined by the CDC/NIOSH. While some laboratories had
established work practices concerning the safe handling of nanoscale materials, the
Department's laboratories we reviewed generally had not:


                               @     Printed u;,~thsoy ink on recycled paper
                                             2


   •   Performed medical surveillance on individuals working with these materials;

   •   Monitored the workplace environment for exposure to airborne nanoscale
       materials;

   •   Provided specific training in the safe handling of nanoscale materials; and,

   •   Required that nanoscale materials research be performed in facilities equipped
       with all of the suggested engineering health and safety controls.

In addition, the Department had not established a mechanism to disseminate nanoscale
materials safety information. Management told us that existing mechanisms, such as
Departmental working groups, adequately performed the dissemination function for
nanoscale safety information. However, at the time of our audit, neither the Department
nor the working group had disseminated lessons learned and other information developed
by the group to other laboratories working with nanoscale materials.

Department officials indicated that they were waiting for the development of national
consensus standards before issuing additional guidance in the areas of medical
surveillance, exposure rate monitoring, training, and use of engineering controls.
Similarly, officials at several laboratories indicated that they were waiting for more
definitive agency standards to be available before establishing specific safety policies
locally. However, CDC/NIOSH has encouraged the establishment of interim standards
until more definitive consensus standards are developed for nanotechnology.

We concluded that the Department should adopt a proactive approach to ensuring that its
laboratories follow best practices in conducting nanoscale-related work. In this way, the
Department increases the chance that workers will be protected from potential health and
safety risks, some of which experts acknowledge may not be fully understood for years.

During our review, an Environment, Health and Safety (ES&H) working group
representing the Department's Nanoscale Science Research Centers (NSRC), issued
safety guidance for nanotechnology, entitled Approach to Nanomaterial ES&H. The
policy suggestions in this guide conform to the CDC/NIOSH precautionary measures on
medical surveillance, exposure rate monitoring, worker training, and engineering
controls. Management stated that all of the Directors of the national laboratories have
accepted the guidance and endorsed them as the best collection of safety and health
information concerning nanoscale activities. While the development of this guidance is a
positive development, the use of the guide is voluntary on the part of the laboratories.
Accordingly, we recommended the Department adopt and issue the NSRC working
group's guidance until national consensus standards can be established.

MANAGEMENT REACTION

Management did not concur with our recommendation. Management felt it was
unnecessary to develop any additional policy or guidance in this area at this time.
                                            3

Management also stated that it had asked Laboratory Directors to provide an update on
their progress in the development and implementation of requirements for
nanotechnology activities.

We disagree with management's position. After we received management's response, we
followed up with several laboratories and found varying degrees of action on the policy
suggestions in the NSRC guidance. Our review found that none of the laboratories had
fully adopted the NSRC suggestions. One official stated that his laboratory was awaiting
formal direction from the Department before acting.

During the course of our audit, we noted a concern regarding the Department being
overly prescriptive about how contractors should achieve mission objectives and its
impact on economy and efficiency. However, the disparity in precautionary measures we
found warrants that the Department clearly establish expectations for such measures at its
laboratories. In addition, the Department's adoption of the NSRC guidance would not
involve the establishment of new requirements since the laboratory directors have agreed
to adopt and operate in a manner consistent with them.

Given the potential health consequences, we believe it is important that the Department
adopt and disseminate the best available guidance on nanoscale safety in order to protect
workers in this important and emerging field of research. Management's comments and
our response are discussed in more detail in the body of the report.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Chief Health, Safety and Security Officer
      Director, Policy and Internal Controls Management, NA-66
REPORT ON NANOSCALE MATERIALS SAFETY AT THE
DEPARTMENT'S LABORATORIES


TABLE OF
CONTENTS


  Nanoscale Materials Safety Polices

  Details of Finding                          1

  Recommendation and Comments                 4


  Appendices

   1. Objective, Scope, and Methodology       7

   2. Management Comments                     9
NANOSCALE MATERIALS SAFETY POLICES

Best Practices   The Department of Energy (Department) established DOE P 456.1,
                 Secretarial Policy Statement on Nanoscale Safety in September
                 2005. This policy stipulates that the Department and its
                 contractors should use best practices and national consensus
                 standards when establishing safety policies to protect workers.
                 Although consensus standards have not been established, we
                 benchmarked the safety practices of the Department's laboratories
                 against the Centers for Disease Control and National Institute for
                 Occupational Safety and Health (CDC/NIOSH) guide Approaches
                 to Safe Nanotechnology (issued in October 2005 and reissued in
                 July 2006 for peer review). CDC/NIOSH are the leading Federal
                 agencies conducting research on health and safety issues of
                 nanoscale materials.

                 While 12 of the Department's laboratories reviewed had
                 established some work practices concerning the safe handling of
                 nanoscale materials, they generally had not implemented all of the
                 procedures suggested in the CDC/NIOSH guide. These procedures
                 were in the areas of medical surveillance, exposure rate
                 monitoring, worker training, and engineering controls. In addition,
                 the Department had not established a mechanism to disseminate
                 nanoscale materials safety information.

                                        Medical Surveillance

                 Of the 12 labs, 11 did not perform medical surveillance of
                 individuals working with nanoscale materials. Medical
                 surveillance involves establishing an initial health baseline of those
                 who work with hazardous materials and scheduling subsequent
                 periodic medical examinations. These subsequent exams track
                 deviations from the baseline and help identify any adverse health
                 effects arising from exposure to nanoscale materials. CDC/NIOSH
                 guidelines state that the unique properties of nanoscale materials,
                 together with information suggesting these materials may pose
                 health and safety hazards to workers, underscore the need for
                 medical surveillance.

                                  Workplace Exposure Monitoring

                 Nine of the 12 laboratories had not initiated monitoring for
                 exposure rates in the workplace. Exposure monitoring involves the
                 sampling of air at various locations in the workplace to measure
                 the amount of airborne particles. Although the toxicity of
                 nanoscale materials is unknown, the CDC/NIOSH suggests
                 monitoring the workplace environment for exposure to nanoscale
                 materials. CDC/NIOSH states that it is critical that background



Page 1                                                            Details of Finding
         exposure measurements be conducted in order to determine
         whether there has been an increase in exposure due to production
         and processing activities.

                                       Training

         Only two of the laboratories required that workers receive training
         specific to handling nanoscale materials. Since nanoscale
         materials can have different qualities than the same materials at a
         larger size, and since knowledge of the safety aspects of the
         nanoscale materials is largely unknown, it is important that
         workers receive more specific training in working with these
         materials. Accordingly, CDC/NIOSH suggests educating and
         training workers in the safe handling of nanoscale materials. Most
         of the laboratories we reviewed relied on standard chemical safety
         training provided to laboratory workers, as well as training on the
         hazards of the specific materials led by principal investigators.
         However, standard chemical safety training usually did not include
         content related to potential hazards of working with nanoscale
         materials. Further, the training led by principal investigators was
         not standardized and was limited to the hazards of the specific
         materials being used on a particular experiment. While both types
         of training are useful, they should be used in tandem with specific
         training in the safe handling of nanoscale materials to ensure
         workers are aware of potential hazards and good work practices.
         Finally, two principal investigators at one laboratory told us that
         they did not require students who were part of their research teams
         to take the standard chemical safety training required of laboratory
         personnel.

                                Engineering Controls

         Only two laboratories required that nanoscale materials research be
         performed in facilities equipped with all of the suggested
         engineering health and safety controls. For example, one
         laboratory identified a potential inhalation hazard with an
         experiment but did not require use of available HEPA filtered
         exhaust ventilation because very little particle loss was anticipated.
         Another laboratory without HEPA filtered ventilation systems
         stated they may allow on-site preparation of nanomaterials
         samples. Such action could increase the inhalation risk of
         nanomaterials. Engineering controls such as exhaust ventilation
         systems which include high efficiency particulate air (HEPA)
         filters can effectively remove nanoscale particles. CDC/NIOSH




Page 2                                                    Details of Finding
               suggests the use of engineering controls, including exhaust
               ventilation systems with HEPA filters, to remove nanoscale
               particles.

               Management pointed out engineering controls should be tailored to
               the potential hazard. It stated that high-efficiency particulate air
               filters such as HEPA filters are appropriate when nanomaterials
               might become airborne, but may not be necessary in all areas
               where nanomaterials research is being conducted. We agree that
               engineering controls should be tailored to potential hazards. As
               noted in the above examples, potential inhalation hazards exist that
               may require the use of engineering controls.

                                  Dissemination of Information

               The Department also had not established a formal process for
               disseminating nanoscale materials safety information to all of the
               laboratories. Although several Departmental working groups had
               been formed to discuss issues related to nanoscale materials
               research, none of these groups had been tasked with disseminating
               safety and health information or lessons learned throughout the
               Department. For example, the Department encouraged the six
               Nanoscale Science Research Centers (NSRC) to establish an
               Environment, Health and Safety working group. Management told
               us that existing mechanisms, such as Departmental working
               groups, interagency working groups, and various websites,
               adequately performed the function of dissemination for nanoscale
               safety information. However, neither the Department nor the
               working group had disseminated lessons learned and other
               information developed by the group to the other laboratories
               working with nanoscale materials. Such information is useful to
               organizations in ensuring that the best current knowledge is
               reflected in the identification and control of potential hazards, as
               required by the Secretarial Policy Statement and encouraged by the
               CDC/NIOSH.


Departmental   The Department relied upon each separate laboratory to develop
Guidance       and implement protective measures and had not provided its
               laboratories with guidance on what specific procedures should be
               followed to meet the Secretarial Policy Statement on Nanoscale
               Safety. Based on our discussions, Department officials were
               waiting for definitive standards to be established by consensus
               standard setting organizations before issuing guidance on medical
               surveillance, exposure rate monitoring, and training; ensuring
               laboratories have the suggested engineering controls; or



Page 3                                                        Details of Finding
                    establishing a method of disseminating information. Similarly,
                    officials at several laboratories indicated that they were waiting for
                    more definitive agency standards to become available before
                    establishing specific safety policies locally. Nonetheless, the
                    CDC/NIOSH has encouraged the establishment of interim
                    standards until the development of more definitive consensus
                    standards.

                    During our review, the NSRC working group issued suggested
                    safety guidance for nanotechnology, entitled Approach to
                    Nanomaterial ES&H. The policy suggestions contained in the
                    guidance are similar to the CDC/NIOSH guidance in the areas of
                    medical surveillance, exposure rate monitoring, worker training,
                    and the appropriate use of engineering controls as suggested by
                    CDC/NIOSH's guide. Management stated that all of the national
                    laboratories have accepted the guidelines and endorsed them as the
                    best collection of safety and health information and guidance
                    concerning nanoscale activities. However, use of the NSRC
                    working group guidance, as well as the CDC/NIOSH guidance, are
                    voluntary on the part of the Department' s laboratories involved in
                    nanotechnology.

Risk to Worker      One of the Department's stated goals is the safety of its employees,
Health and Safety   the public, and the environment. The Department faces many
                    uncertainties about whether nanotechnology materials pose
                    occupational health and safety risks as it pursues nanotechnology
                    research. Health and safety risks include possible pulmonary
                    inflammation and lung tumors resulting from the inhalation of
                    nanoscale materials as well as an increased potential for explosion
                    and fire due to nanoscale attributes that are not present in the same
                    materials at larger sizes. Given the uncertainties about the
                    occupational health and safety risk posed by nanotechnology
                    particles, it is prudent for the Department to take precautionary
                    measures to minimize worker exposure as suggested by the
                    CDC/NIOSH and the NSRC guidance.

RECOMMENDATIONS     We recommend that the Chief, Office of Health, Safety and
                    Security (HSS), adopt and disseminate the Nanoscale Science
                    Research Centers working group's guidance as the Department's
                    expectation of safety policies and procedures at the laboratories in
                    these areas:

                       •   Performing medical surveillance on individuals working
                           with or around nanoscale materials;




Page 4                                           Recommendations and Comments
                •   Performing exposure rate monitoring in the laboratories
                    where nanoscale materials research is performed;

                •   Training employees in the safe handling of nanoscale
                    materials when working with and around these materials;
                    and,

                •   Using appropriate engineering controls, such as HEPA
                    filtered external exhaust systems, while performing
                    nanoscale materials research.

MANAGEMENT   The Office of HSS did not concur with our recommendation.
REACTION     Specifically, management felt it was unnecessary to develop any
             additional policy or guidance in this area at this time. Management
             found that the NSRC working group's guidance addressed the
             existing Secretarial Policy Statement and provided an appropriate
             approach to health and safety concerns when working with
             nanomaterials. Management also stated that it has asked
             Laboratory Directors to provide HSS with an update on their
             progress in the development and implementation of requirements
             for nanotechnology activities.

AUDITOR      Management's comments were not responsive to our
COMMENTS     recommendation. While we agree that development of the NSRC
             guidance is a positive first step, compliance with the guidelines
             remains voluntary by the laboratories. For example, one national
             laboratory official pointed out that the guidelines were not part of
             the laboratory's contract with the Department, although they were
             applicable to nanotechnology-related work at the laboratory.
             Additionally, although the guidelines have been accepted by the
             Laboratory Directors, subsequent discussions with several
             laboratories found varying degrees of action had been taken on the
             policy suggestions in the NSRC guidance. None of the
             laboratories we contacted had fully adopted the NSRC suggestions.
             One non-NSRC laboratory official responded that the guidance
             was not mandatory and intended for the NSRCs only.

             We also noted that, in at least two cases, responses to the HSS
             request for an update on nanotechnology safety requirements,
             which were available to us, did not provide assurance that proper
             requirements were in place. Specifically, two laboratories
             responded that they were either still developing procedures or
             reviewing the additional program requirements needed to establish
             strict adherence to the NSRC guide.




Page 5                                   Recommendations and Comments
         Accordingly, we believe it is important for the Department to
         adopt and disseminate the guidelines in order to clearly establish
         its expectations for measures that all laboratories need to take in
         order to satisfy the Secretarial Policy Statement on nanotechnology
         safety.




Page 6                                                         Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy's (Department) laboratories were employing
              appropriate measures specifically tailored for working with
              nanoscale materials.

SCOPE         This audit was performed between January and August 2007 at
              Department Headquarters in Washington, DC, and Germantown,
              Maryland; Ames Laboratory in Ames, Iowa; and Sandia National
              Laboratory in Albuquerque, New Mexico. Information was also
              received from Lawrence Berkeley National Laboratory in
              Berkeley, California; Brookhaven National Laboratory in Upton,
              New York; Argonne National Laboratory in Argonne, Illinois; Oak
              Ridge National Laboratory in Oak Ridge, Tennessee; Pacific
              Northwest National Laboratory in Richland, Washington;
              Lawrence Livermore National Laboratory in Livermore,
              California; Los Alamos National Laboratory in Los Alamos, New
              Mexico; Idaho National Laboratory in Idaho Falls, Idaho; the
              National Renewable Energy Laboratory in Golden, Colorado; and
              the Stanford Linear Accelerator Center in Menlo Park, California.
              The scope of the audit included policies and procedures related to
              nanoscale materials safety in effect during Fiscal Year 2007.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed applicable laws and regulations pertaining to
                      nanoscale materials safety;

                  •   Reviewed industry and governmental standards related to
                      industrial hygiene;

                  •   Reviewed Departmental policies and procedures related to
                      nanoscale materials safety;

                  •   Performed site visits at Ames Laboratory, and Sandia
                      National Laboratory;

                  •   Reviewed safety policies and requirements in effect at 12
                      Departmental Laboratories;

                  •   Reviewed the Government Performance and Results Act
                      of 1993 and determined if performance measures had been
                      established; and,




Page 7                                   Objective, Scope, and Methodology
             •   Held discussions with officials and personnel from the
                 Office of Health, Safety and Security; the National
                 Nuclear Security Administration's Environment, Safety
                 and Health Program; Ames Laboratory; Sandia National
                 Laboratory; Lawrence Berkeley National Laboratory;
                 Brookhaven National Laboratory; Argonne National
                 Laboratory; Oak Ridge National Laboratory; Pacific
                 Northwest National Laboratory; Lawrence Livermore
                 National Laboratory; Los Alamos National Laboratory;
                 Idaho National Laboratory; the National Renewable
                 Energy Laboratory; and the Stanford Linear Accelerator
                 Center.

         This performance audit was conducted in accordance with
         generally accepted Government auditing standards. Those
         standards require that we plan and perform the audit to obtain
         sufficient, appropriate evidence to provide a reasonable basis for
         our findings and conclusions based on our audit objective. We
         believe that the evidence obtained provides a reasonable basis for
         our findings and conclusions based on our audit objective. The
         audit included tests of controls and compliance with laws and
         regulations necessary to satisfy audit objectives. Because our
         review was limited, it would not necessarily have disclosed all
         internal control deficiencies that may have existed at the time of
         the audit. We did not rely on computer processed data to
         accomplish our audit objective. Performance measures were not
         established for nanoscale materials safety; however, our
         recommendations were directed at the Department to establish its
         expectations in this area.

         An exit conference was held with Department Officials for the
         Office of Health, Safety and Security, and the Office of Science on
         January 22, 2008.


         .




Page 8                               Objective, Scope, and Methodology
Appendix 2




Page 9       Management Comments
                                                                    IG Report No. DOE/IG-0788

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
